IN THE SUPREME COURT OF THE UNITED STATES

PUBLIC WATCHDOGS
Petitioner
vs.

No:

20-1676

SOUTHERN CALIFORNIA EDISON COMPANY, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
July 01, 2021
cc:

See Attached List

BRIAN E. CASEY
BARNES & THORNBURG LLP
201 S. MAIN ST.
SUITE 400
SOUTH BEND, IN 46601
CHARLES LA BELLA
BARNES & THORNBURG LLP
655 W. BROADWAY
STE. 1300
SAN DIEGO, CA 92101
L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 CENTURY PARK EAST
LOS ANGELES, CA 90067

